U.S. Department of Agriculture
 Office of Inspector General
       Western Region
         Audit Report



       Food Stamp Program
       Administrative Costs
            California




                 Report No.
                 27099-18-SF
                 July 2002
                   UNITED STATES DEPARTMENT OF AGRICULTURE
                                OFFICE OF INSPECTOR GENERAL
                                      Western Region - Audit
                                   75 Hawthorne Street, Suite 200
                                San Francisco, California 94105-3920
                               TEL: 415-744-2851 FAX: 415-744-2871


DATE:        July 3, 2002

REPLY TO
ATTN OF: 27099-18-SF

SUBJECT: Food Stamp Program Administrative Costs –
         California

TO:          Allen Ng
             Regional Administrator
             Western Region
             Food and Nutrition Service

ATTN:        Kathleen Burks
             Director of Financial Management


This report presents the results of our audit of Food Stamp Program administrative
costs claimed by the State of California for fiscal year 2000. Your June 21, 2002,
response to the draft report is included as exhibit E of the report. Excerpts from your
response have been incorporated into the relevant sections of the report.

We are unable to accept your management decision for all recommendations. In
accordance with Department Regulation 1720-1, we will be able to accept your
management decision on Recommendation Nos.1, 4, 5, and 7 when you provide us
with documentation that the State was billed for the questioned costs. We will be able
to accept your management decision on Recommendation Nos. 2, 3, 6 and 8 when
you provide us with your plan and a timeframe for implementing the corrective action.

Please furnish a reply within 60 days describing the corrective action taken or planned
and the timeframes for implementation of all of our recommendations. Please note
that the regulation requires a management decision to be reached within a maximum
of 6 months from report issuance. Follow your internal agency procedures in
forwarding final action correspondence to the Office of the Chief Financial Officer.

We appreciate the assistance and cooperation of your staff during this review.

/s/

SAM W. CURRIE
Regional Inspector General
 for Audit
                     EXECUTIVE SUMMARY

           FOOD STAMP PROGRAM ADMINISTRATIVE COSTS-
                          CALIFORNIA
                  AUDIT REPORT NO. 27099-18-SF


                                      This report presents the results of our audit
     RESULTS IN BRIEF                 of the costs claimed by the California
                                      Department of Social Services (CDSS) for
                                      administering the Food Stamp Program
          (FSP). Our objective was to determine the accuracy of CDSS’
          administrative cost claim for Federal fiscal year (FY) 2000 and to
          verify the allowability of the costs.

              We reviewed CDSS’ cost claim (i.e., Financial Status Report) and
              judgmentally selected 8 of 16 cost categories for a more detailed
              review: certification, management evaluations (ME), nutrition
              education, automated data processing operations, and all four
              employment and training categories. These categories represented
              $109 million out of $266 million (41 percent) in administrative costs
              claimed by CDSS.

              We found that CDSS’ claims were not always accurate and the
              costs were not always supportable. Based on our review, we
              questioned over $9 million:

              •    CDSS claimed $8,511,670 in prior fiscal years’ expenditures in
                   FY 2000. CDSS claimed it had a verbal agreement with FNS
                   to claim prior years’ expenditures in the current year.
                   However, FNS was unaware of any verbal or written
                   agreement to that effect. As a result, CDSS overstated its FY
                   2000 claim and was overreimbursed $8,511,670. Although
                   CDSS may retroactively submit a claim, funds appropriated for
                   those years may not be available.

              •    CDSS could not support its claim of $517,783 for ME reviews.
                   After repeated requests, CDSS could not provide us with
                   documentation that it had conducted any ME reviews for the
                   58 counties in FY 2000. Officials claimed the documentation
                   was misplaced during a reorganization.


USDA/OIG-A/27099-18-SF                                                     Page i
             Since the county offices administer the FSP, we judgmentally
             selected 3 of 58 county offices (Alameda, Fresno, and Los Angeles)
             to review their expense claims. In FY 2000, these three counties
             expended $138.5 million, or 49 percent, of county-level administrative
             costs. Of this amount, we judgmentally sampled over $9.4 million (6.8
             percent). At two of the three county offices, we found that
             unallowable costs were charged to the FSP.

             •    Los Angeles County claimed $57,700 in unallowable costs to
                  the FSP. Examples of these costs included microwave ovens,
                  catering costs for celebrations, training costs unrelated to
                  FSP, and settlements for lawsuits against the county. Officials
                  incorrectly believed that these costs were allowable.

             •    Fresno County claimed unallowable “marriage license fees”
                  totaling $9,702 to the FSP. According to a county official, the
                  fees were mistakenly included in the claim.

                                 We recommend that FNS recover from
 KEY RECOMMENDATIONS             CDSS a total of $9,096,855 (see exhibit
                                 A). Also, FNS should ensure that CDSS
                                 complies with the frequency requirements
         for conducting ME reviews.

                                  In its June 21, 2002, written response to
    AGENCY RESPONSE               the draft report, the FNS Western
                                  Regional Office concurred with the report
                                  findings and recommendations. FNS’
         response is included as exhibit E of this report.




USDA/OIG-A/27099-18-SF                                                    Page ii
                                    TABLE OF CONTENTS


EXECUTIVE SUMMARY .......................................................................................... i

INTRODUCTION ......................................................................................................1

FINDINGS AND RECOMMENDATIONS..................................................................5

CHAPTER 1 – PRIOR YEARS’ EXPENDITURES WERE CLAIMED IN FY 2000 .. 5
         FINDING NO. 1 ............................................................................................. 5
         Recommendation No. 1................................................................................... 6
         Recommendation No. 2................................................................................... 7
         Recommendation No. 3................................................................................... 7

CHAPTER 2 – CDSS COULD NOT PROVIDE DOCUMENTATION THAT
IT CONDUCTED ME REVIEWS IN FY 2000 ............................................................9
         FINDING NO. 2 ............................................................................................. 9
         Recommendation No. 4................................................................................. 10

CHAPTER 3 – COUNTIES CLAIMED UNALLOWABLE COSTS .......................11
         FINDING NO. 3 ............................................................................................11
         Recommendation No. 5................................................................................. 13
         Recommendation No. 6................................................................................. 13
         Recommendation No. 7................................................................................. 14

CHAPTER 4 – LOS ANGELES COUNTY DID NOT ALWAYS ADHERE
TO RMTS PROCEDURES......................................................................................15
         FINDING NO. 4 ............................................................................................15
         Recommendation No. 8................................................................................. 15

EXHIBITS

A – SUMMARY OF MONETARY RESULTS...........................................................17
B – SITES VISITED ................................................................................................18
C - PRIOR YEARS' EXPENDITURES CLAIMED BY CDSS IN FY 2000................ 19




 USDA/OIG-A/27099-18-SF                                                                                   Page iii
D – LOS ANGELES COUNTY CLAIMED COSTS UNRELATED TO THE FOOD
STAMP PROGRAM – FY 2000.............................................................................. 20

E – FNS’ WRITTEN RESPONSE TO THE DRAFT REPORT.................................. 21

ABBREVIATIONS ................................................................................................. 24




 USDA/OIG-A/27099-18-SF                                                                                Page iv
                                       INTRODUCTION

                                           In 1977, Congress passed Public Law 95-
            BACKGROUND                     113, the Food Stamp Act, which made the
                                           FSP a permanent, Federal food assistance
                                           program that provides support to needy
                households. FNS funds the full cost of food stamp benefits and
                generally reimburses the States for 50 percent of their direct and
                indirect administrative costs. In FY 2000, FNS received over $17
                billion for the FSP, including $2.1 billion for administrative costs.

                     Title 7, Code of Federal Regulations, part 277, establishes uniform
                     requirements for the management of funds provided to the States
                     for the administration of the FSP. Appendix A of this part,
                     “Principles for Determining Costs Applicable to Administration of the
                     Food Stamp Program by State Agencies,” sets forth the principles
                     for determining the allowable costs of administering the program.

                     States administer the program through their welfare offices or, in
                     some cases, through county welfare agencies under the oversight
                     of the State. Quarterly, States are required to submit a Financial
                     Status Report to claim program costs. The report identifies major
                     allowable cost categories such as certification, employment and
                     training, ADP operations, and nutrition and education. Employment
                     and training is designed to improve the employability of FSP
                     recipients; and nutrition and education educate FSP recipients in
                     making healthy food choices in their diet. Other allowable costs are
                     listed in the Office of Management and Budget (OMB) Circular A-
                     87, “Cost Principles for State, Local, and Indian Tribal
                     Governments.”

                     In California, the FSP is administered by the California Department of
                     Social Services (CDSS) and is implemented at the local level by 58
                     county welfare offices. County offices (CO) are reimbursed through
                     the State by submitting a County Expense Claim.1 The total Federal
                     outlay for the FSP administrative costs increased from $207 million in
                     FY 1999 to $266 million in FY 2000. This represented an increase of
                     29 percent in 1 year, when monthly participation decreased 10
                     percent from 2,027,089 recipients in FY 1999 to 1,831,697 in FY

1
 The County Expense Claim (DFA 325) is a State form used by counties to summarize costs from all Federal,
State and county programs.

    USDA/OIG-A/27099-18-SF                                                                       Page 1
             2000. In FY 2000, California’s administrative cost per FSP participant
             was $145, compared to a national average of $121.

             CDSS and its counties base their direct and indirect administrative
             costs on their cost allocation plan approved by the cognizant Federal
             agency, the U.S. Department of Health and Human Services (HHS).
             Prior to approval, FNS has the opportunity to review the cost
             allocation plan and submit comments and recommendations to HHS.
             The FSP administrative costs are charged directly through case
             counts, direct charge, or staff effort; or distributed based on the
             results of monthly time studies or other approved methodologies such
             as the Random Moment Time Study (RMTS).

             Under RMTS, management selects a statistical sample of employees
             to indicate the programs they worked on at the sample time. After
             management summarizes the information from the sample forms, a
             percentage of participation is compiled for each financial program.
             The information is used to distribute costs to each program.

                                      Our objective was to determine the
        OBJECTIVES                    accuracy of CDSS’ administrative cost
                                      claims for FSP and the allowability of those
                                      costs.

                                    We performed this audit as part of our on-
           SCOPE                    going review of States in the OIG western
                                    region. We selected California because (1)
                                    its FSP administrative costs increased, even
            though its monthly participation decreased, and (2) it had a high
            administrative cost per FSP participant compared to the national
            average.

             CDSS is responsible for claiming reimbursement for State and county
             administrative costs. We reviewed CDSS’ Financial Status Reports for
             FY 2000. Based on their high dollar value, we judgmentally selected
             8 of 16 cost categories for more detailed examination—certification,
             management evaluation, ADP operation, nutrition education, and all
             four employment and training categories.         These categories
             represented $109 million out of $266 million (41 percent) in
             administrative costs.

             After noting discrepancies in the handling of prior year expenditures,
             we expanded our scope to include FY’s 1997 through 1999. Also,
             since CDSS could not provide us with evidence that they conducted
             ME reviews in FY 2000, we expanded our scope in this area to FY

USDA/OIG-A/27099-18-SF                                                    Page 2
            2001 to determine if ME reviews were being conducted in the most
            current year.

            In addition, we judgmentally selected 3 out of 58 counties (Alameda,
            Fresno, and Los Angeles) based on their size and location. For FY
            2000, these three counties expended $138.5 million, or 49 percent of
            the State’s total FSP administrative cost reimbursement. Of this
            amount, we judgmentally sampled over $9 million, selecting large or
            unusual costs for staff training, other operating costs, and costs under
            the generic categories. We also reviewed the Random Moment Time
            Study (RMTS) used by the Los Angeles County to allocate its FSP
            administrative costs.

            We performed fieldwork from May 2001 through November 2001 at
            the FNS Western Regional Office in San Francisco; CDSS in
            Sacramento; California Department of Health Services in
            Sacramento; and our selected three counties (see exhibit B).

            This audit was performed in accordance with generally accepted
            government auditing standards.

                                     To accomplish our objectives, we performed
      METHODOLOGY                    the following procedures:


            •   We reviewed regulations, policies, and procedures governing FSP
                administrative costs, including Office of Management and Budget
                (OMB) Circular A-87.

            • We interviewed FNS Western Regional Office officials to
              determine what controls are used to monitor FSP administrative
              costs at the State agencies and to identify any issues
              concerning the budget approval process.

            •   At the FNS Western Regional Office, we reviewed a recent FNS
                financial management review of the State of California, FNS
                program and fiscal review of the California Nutrition Network’s
                Food Stamp Nutrition Education Plan, records of ME reviews
                conducted by CDSS, and CDSS’ cost allocation plans approved
                by HHS.

            •   We interviewed an official at HHS’ Division of Cost Allocation to
                determine if she identified any problems relating to CDSS’ cost
                allocation plan.


USDA/OIG-A/27099-18-SF                                                     Page 3
            •   We reviewed the most recent OMB Circular A-133 Single Audit
                report for California and related CO’s to identify issues concerning
                the allocation of State administrative costs.

            •   We reviewed CDSS accounting records and analyzed the
                reimbursement claims made on the final Financial Status Report
                for FY 2000.

            •   We traced CO administrative costs from the County Expense
                Claim to worksheets used to compile the data and traced those
                worksheets to the COs’ ledgers to determine if there were any
                discrepancies.

            •   We interviewed State and CO officials responsible for recording
                and reporting administrative costs and completing the RMTS.




USDA/OIG-A/27099-18-SF                                                     Page 4
                 FINDINGS AND RECOMMENDATIONS



    CHAPTER 1               PRIOR YEARS’ EXPENDITURES WERE CLAIMED
                            IN FY 2000

                                          CDSS claimed expenditures that were
                                          incurred in FY’s 1997 through 1999 as FY
             FINDING NO. 1                2000 expenditures. CDSS claimed it had a
                                          verbal agreement with FNS to claim prior
                  years’ expenditures in the current year. However, FNS was
                  unaware of any verbal or written agreement to that effect. As a
                  result, CDSS overstated its claim and was overreimbursed by
                  $8,511,6702 (see exhibit C) for FY 2000.

                      The Appropriations Law3 states, “annual appropriations are
                      available only to meet bona fide needs of the fiscal year for which
                      they are appropriated…. If an agency fails to obligate its annual
                      funds by the end of the fiscal year for which they were
                      appropriated, they cease to be available for obligation and are said
                      to have ‘expired’ for obligational purposes…. Annual appropriations
                      remain available for an additional five years beyond expiration,
                      however, to make payments to liquidate liabilities arising from
                      obligations made within the fiscal year for which the funds were
                      appropriated.”

                      In a prior OIG audit report,4 auditors found that CDSS incorrectly
                      claimed prior fiscal years’ expenditures in FY 1991.             In a
                      memorandum dated October 5, 1993, FNS informed the Director of
                      CDSS that “it is FNS’ policy that cost incurred in a given fiscal year
                      must be paid by that fiscal year’s grant, therefore maintaining the
                      fiscal year integrity of funds.”



2
  This amount represents the FSP share invoiced by the contracted agencies to perform nutrition and education,
and ADP services.
3
  U.S. General Accounting Office, Principles of Federal Appropriations Law, Second Edition, Vol. I Chapter 5,
dated December 1992, pages 5-4 and 5-5.
4
  Audit report No. 27018-4 SF dated July 1993.

    USDA/OIG-A/27099-18-SF                                                                          Page 5
                        Under contractual agreements, other State agencies performed
                        nutrition education and ADP operations for CDSS. In some cases,
                        these agencies submitted invoices to CDSS nearly 2 years after
                        they performed their services. We determined that CDSS charged
                        38 invoices from prior years5 to the current year, thereby
                        overstating its claim by $8,511,670. As a result, CDSS was
                        overreimbursed for that amount for FY 2000.

                        State agencies may claim prior years’ expenditures by submitting
                        amended reports up to 3 years prior to the end of the last fiscal
                        year. However, to properly recognize prior period expenditures,
                        CDSS must obligate funds when it contracts with a vendor, even
                        though it may not expect to pay for the goods or services until the
                        following fiscal year. Although CDSS is currently obligating its
                        contractual liabilities, it failed to obligate them for FY’s 1997 through
                        1999.

                        A CDSS official claimed there was a verbal agreement with a
                        former FNS employee to claim prior years’ expenditures as current
                        year expenditures. However, officials at the FNS Western Regional
                        Office were unaware of any verbal agreements with CDSS.

                        FNS should recover the $8,511,670 for FY 2000. CDSS may
                        retroactively submit a claim for FY 1998 and FY 1999. (The
                        $86,737 incurred in FY 1997 is already beyond a 3-year limitation
                        set by Federal Regulations.6) However, since CDSS failed to
                        establish any obligations in FY’s 1998 or 1999, funds may no longer
                        be available to reimburse the agency for the remaining balance of
                        $8,424,933.


RECOMMENDATION NO. 1

                        Recover from CDSS $8,511,670 in prior fiscal years’ expenditures
                        that were claimed for FY 2000.




                        FNS Response

5
    These prior year invoices were for contractual services rendered in FY’s 1997 through 1999.
6
    7 CFR 277.11 (d), dated January 1, 2001.

    USDA/OIG-A/27099-18-SF                                                                        Page 6
            In its written response to the draft report, dated June 21, 2002, FNS
            concurred with this finding and recommendation.

            OIG Position

            We are unable to accept your management decision until you
            provide us with documentation that the State was billed for
            $8,511,670.



 RECOMMENDATION NO. 2

            Instruct CDSS to adjust its Financial Status Report for FY 2000 and
            for the affected prior fiscal years to accurately show the
            expenditures of those years.

            FNS Response

            In its written response to the draft report, dated June 21, 2002, FNS
            concurred with this finding and recommendation.

            OIG Position

            We are unable to accept your management decision until you
            provide us with your plan and a timeframe for implementing the
            corrective action.



 RECOMMENDATION NO. 3

            Require CDSS to implement controls to ensure prior period
            expenditures are charged to the year in which they were incurred.

            FNS Response

            In its written response to the draft report, dated June 21, 2002, FNS
            concurred with this finding and recommendation.




            OIG Position

USDA/OIG-A/27099-18-SF                                                  Page 7
            We are unable to accept your management decision until you
            provide us with your plan and a timeframe for implementing the
            corrective action.




USDA/OIG-A/27099-18-SF                                            Page 8
    CHAPTER 2               CDSS COULD NOT PROVIDE DOCUMENTATION
                            THAT IT CONDUCTED ME REVIEWS IN FY 2000

                                         CDSS      was      unable    to    provide
                                         documentation to support that it had
             FINDING NO. 2               conducted any Management Evaluation
                                         (ME) reviews for FY 2000. According to a
                  CDSS official, the documentation was misplaced during the
                  department’s reorganization and could not be located. As a result,
                  in the absence of this documentation, we question the $517,783
                  charged to the FSP by CDSS for this purpose.

                     Regulations7 state, “State agency shall maintain Performance
                     Reporting System records to permit ready access to, and use of,
                     these records…precautions should be taken to ensure that these
                     records are retained without loss or destructions for the 3-year
                     required by these regulations.” Regulations8 further state, “review
                     worksheets shall be retained in orderly fashion and made available
                     to FNS upon request.”

                     The purpose of ME reviews is to measure the counties’ compliance
                     with FSP regulations and to provide FNS a continuous flow of
                     information regarding the FSP operations. Regulations require the
                     State to submit ME review schedules and to use a review
                     worksheet to identify the county, scope, methodology, and all
                     review findings. 9

                     On numerous occasions, we requested the documentation related
                     to FY 2000 ME reviews. CDSS was unable to provide us with either
                     the reviews or a review schedule. We later found that FNS had also
                     requested documentation of the ME reviews but was unsuccessful
                     in obtaining it. Until CDSS provides documentation that it conducted
                     the FY 2000 ME reviews, CDSS should reimburse $517,783 to
                     FNS.




7
  7 CFR 275.4(a), dated January 1, 2000
8
  7 CFR 275.9(d)(2), dated January 1, 2000
9
  7 CFR 275.9(2)(d) and 275.20(a), dated January 1, 2000

    USDA/OIG-A/27099-18-SF                                                      Page 9
RECOMMENDATION NO. 4

            Unless CDSS can provide documentation that ME reviews were
            conducted in FY 2000, recover $517,783 in ME costs.

            FNS Response

            In its written response to the draft report, dated June 21, 2002, FNS
            stated that: “FNS concurs with this recommendation, but also notes
            that corrective action and error reduction activities are also claimed
            in this category. The State may produce documentation of either to
            support the expenditures cited above.”

            OIG Position

            We are unable to accept your management decision until you
            provide us with documentation that the State was billed for
            $517,783 or you provide us with support for the expenditures cited
            above.




USDA/OIG-A/27099-18-SF                                                  Page 10
     CHAPTER 3               COUNTIES CLAIMED UNALLOWABLE COSTS

                                         Los Angeles County (Department of Public
                                         and Social Services) and Fresno County
             FINDING NO. 3               (Human     Services      System)    claimed
                                         unallowable costs under the FSP in FY
                  2000. These costs were unallowable because they were unrelated
                  and unnecessary to the FSP operations. As a result, FNS
                  overreimbursed these two counties a total of $67,402 in FSP funds.

                      The Office of Management and Budget (OMB) Circular A-8710
                      states, “the principles are designed to provide that Federal awards
                      bear their fair share of cost recognized under these principles….”

                      Counties use time or observations reported by designated staff as a
                      basis for distributing cost to various financial programs. The
                      Federal share of the unallowable costs was reimbursed to the
                      counties on an allocation basis determined by these time studies.

                      We judgmentally selected 3 out of 58 counties (Alameda, Fresno, and
                      Los Angeles) in California because of their size and location. In
                      Alameda County, our review did not disclose any reportable
                      conditions; however, we identified unallowable costs in both Los
                      Angeles and Fresno Counties.

                      Los Angeles County

                      Los Angeles County allocated costs that were unallowable or
                      unrelated to the FSP. Officials incorrectly believed that the costs
                      were part of the administrative costs. As a result, FNS
                      overreimbursed the county by $57,700 (see exhibit D) in FSP funds.

                      Regulations11 state, “To be allowable under the Program, costs
                      must meet the following… be necessary and reasonable for proper
                      and efficient administration of the Program… not be a general
                      expense required to carry out the overall responsibilities of State or
                      local government.”


10
   Cost Principles for State, Local, and Indian Tribal Governments, Attachment A (A.1) revised May 4, 1995, as
further amended August 29,1997.
11
   7CFR 277, Appendix A (C)(1) dated January 1, 2000.

 USDA/OIG-A/27099-18-SF                                                                             Page 11
                      In FY 2000, Los Angeles County was reimbursed $116.6 million for
                      FSP administrative costs. We reviewed the allowability of the
                      county’s claims by judgmentally sampling 55 expenditures totaling
                      $6.6 million. We found that in 21 of 55 expenditures sampled (see
                      exhibit D), the county had incorrectly claimed costs for catering,
                      training, and consulting costs that were unrelated to the FSP.
                      Examples included litigation settlements, catering at a county
                      graduation ceremony, and a “Teens with Special Needs Programs”
                      celebration, conferences for “Children’s Defense”, and microwave
                      ovens.

                      Los Angeles County agreed that with the exception of the catering
                      services and the training costs, all of the unallowable costs should
                      not have been claimed. However, county officials believed that its
                      catering costs were appropriate if the primary purpose of its
                      meeting was to disseminate technical information. Officials also
                      believed that all training costs have a department-wide benefit, so
                      they were pooled into the indirect costs.

                      We disagree that the catering costs are allowable because the
                      primary purpose for the celebrations was not to disseminate
                      technical information to the FSP. Also, since Los Angeles County
                      was unable to provide evidence of how the training benefited the
                      FSP, those costs should not have been claimed. Therefore, CDSS
                      should reimburse FNS the $57,700, the FSP share of the
                      reimbursement.

                      Fresno County

                      From December 1999 through June 2000, Fresno County
                      incorrectly claimed “marriage license fees” totaling $146,672.
                      According to a county official, the fees were mistakenly included in
                      the County Expense Claim. As a result, FNS overreimbursed
                      Fresno County by $9,702, the FSP share12 of these costs.

                      OMB Circular A-8713 states, “a cost is allocable to a particular cost
                      objective if the goods or service involved are chargeable or
                      assignable to such cost objective in accordance with relative
                      benefits received.”



12
  The FSP share of the total costs amounted to about 7.1 percent.
13
   Cost Principles for State, Local, and Indian Tribal Governments, Attachment A (C)(3a) revised May 4, 1995, as
further amended August 29,1997.

 USDA/OIG-A/27099-18-SF                                                                            Page 12
            In FY 2000, Fresno County was reimbursed over $7 million for FSP
            administrative costs. We reviewed the allowability of the county’s
            claims by judgmentally sampling 11 expenditures totaling $1.4
            million and determined that HSS had incorrectly claimed
            reimbursement for $146,672 in “marriage license fees.” An official
            stated that these fees were payments for a domestic violence
            program and were incorrectly included in the claim.

            CDSS should reimburse FNS for $9,702, the FSP share of the
            reimbursement.


 RECOMMENDATION NO. 5

            Recover $57,700 in unallowable expenditures from CDSS claimed
            by Los Angeles County.

            FNS Response

            In its written response to the draft report, dated June 21, 2002, FNS
            concurred with this finding and recommendation.

            OIG Position

            We are unable to accept your management decision until you
            provide us with documentation that the State was billed for
            $57,700.


 RECOMMENDATION NO. 6

            Instruct CDSS to require Los Angeles County to review its
            expenditures and recover any additional unallowable charges to the
            FSP.

            FNS Response

            In its written response to the draft report, dated June 21, 2002, FNS
            concurred with this finding and recommendation.




USDA/OIG-A/27099-18-SF                                                 Page 13
            OIG Position

            We are unable to accept your management decision until you
            provide us with your plan and a timeframe for implementing the
            corrective action.


 RECOMMENDATION NO. 7

            Recover $9,702 in marriage license fees from CDSS that were
            erroneously claimed by the Fresno County.

            FNS Response

            In its written response to the draft report, dated June 21, 2002, FNS
            concurred with this finding and recommendation.

            OIG Position

            We are unable to accept your management decision until you
            provide us with documentation that the State was billed for $9,702.




USDA/OIG-A/27099-18-SF                                                 Page 14
                               LOS ANGELES COUNTY DID NOT ALWAYS
     CHAPTER 4
                               ADHERE TO RMTS PROCEDURES

                                                 Los Angeles County did not always adhere
                                                 to its Random Moment Time Study
               FINDING NO. 4                     (RMTS) procedures to allocate over $116
                                                 million in FSP costs. This occurred
                    because some employees were unaware of proper procedures. As
                    a result, the reliability of the time study data used to distribute costs
                    had been diminished.

                        The allocation plan14 states, “The worker indicates the appropriate
                        program code to the observer, and initials the RMTS-115 next to his
                        or her name, indicating that the observation has been made and
                        recorded.”

                        Los Angeles County uses RMTS to scientifically determine the
                        amount of effort spent by a group of employees on various activities.
                        Employees are periodically approached by a designated observer
                        who logs the employees’ activity at that moment. The employee then
                        validates the observation by initialing the log.

                        We reviewed the RMTS records for FY 2000, and determined that
                        12 of the 61 district offices did not obtain the initials of the observed
                        employee. Without the employees’ verification, there is no
                        assurance that Los Angeles County is accurately portraying the
                        employees’ activities. As a result, this practice may have
                        diminished the validity of the time study data used by Los Angeles
                        County to determine $116 million in administrative costs for FY
                        2000.


      RECOMMENDATION NO. 8

                        Require CDSS to instruct Los Angeles County to ensure that its
                        observers comply with RMTS instructions.



14
     CDSS County Welfare Department Cost Allocation Plan, dated October 1999.
15
     RMTS-1 is the “Random Moment Code Sheet” used to note observations and to obtain the worker’s initials.

 USDA/OIG-A/27099-18-SF                                                                            Page 15
            FNS Response

            In its written response to the draft report, dated June 21, 2002, FNS
            concurred with this finding and recommendation.

            OIG Position

             We are unable to accept your management decision until you
             provide us with your plan and a timeframe for implementing the
             corrective action.




USDA/OIG-A/27099-18-SF                                                 Page 16
EXHIBIT A – SUMMARY OF MONETARY RESULTS

RECOMMENDATION         DESCRIPTION            AMOUNT            CATEGORY
    NUMBER
                 Prior years’ expenditures                Questioned Cost,
      1          claimed in FY 2000          $8,511,670   Recovery Recommended

                 CDSS could not support                   Unsupported Cost,
                 Management Evaluation        $517,783    Recovery Recommended
      4
                 reviews

                 Los Angeles County                       Questioned Cost,
                 claimed unallowable                      Recovery Recommended
      5
                 costs                         $57,700

                 Fresno County claimed                    Questioned Cost,
      7          unallowable costs              $9,702    Recovery Recommended

TOTAL MONETARY
                                             $9,096,855
RESULTS




USDA/OIG-A/27099-18-SF                                                  Page 17
EXHIBIT B – SITES VISITED

                               SITE                               LOCATION

 FOOD AND NUTRITION SERVICE WESTERN REGIONAL OFFICE           San Francisco, CA

 CALIFORNIA DEPARTMENT OF SOCIAL SERVICES
     Food Stamp Program Bureau                                Sacramento, CA
     Fund Accounting and Reporting                            Sacramento, CA
     Fiscal Systems Bureau                                    Sacramento, CA
     Fiscal Policy Bureau                                     Sacramento, CA

 CALIFORNIA DEPARTMENT OF HEALTH SERVICES
     Accounting Section                                       Sacramento, CA

 COUNTY OFFICES:
    Alameda County Social Services Agency                     Alameda, CA
    Los Angeles County Department of Public Social Services   Los Angeles, CA
    Fresno County Human Services System                       Fresno, CA




USDA/OIG-A/27099-18-SF                                                   Page 18
EXHIBIT C – PRIOR YEARS’ EXPENDITURES CLAIMED BY CDSS IN
            FY 2000

  DESCRIPTION            FY         FY           FY         TOTAL
                        1997       1998         1999

 Nutrition Education
         Costs         $86,737   $2,433,793   $5,060,195   $7,580,725


  ADP Operations
      Costs             N/A       $290,528     $640,417      930,945


    TOTAL
 PRIOR YEARS’          $86,737   $2,724,323   $5,700,610   $8,511,670
 EXPENDITURES




USDA/OIG-A/27099-18-SF                                        Page 19
EXHIBIT D – LOS ANGELES COUNTY CLAIMED COSTS UNRELATED TO
           THE FOOD STAMP PROGRAM – FY 2000

                             DESCRIPTION                                       TOTAL        FSP
                                                                               COST       PORTION
Catering
Jay’s Catering (Child Medi-Cal Enrollment Program Celebration)                   $2,650         $407
Ogden Entertainment (Teens with Special Needs Program celebration)                9,879        2,166
Simply Unique Catering (county graduation ceremony)                               2,699          592
    Subtotal                                                                     15,228        3,165

Microwave
U.S. Food Service (microwave ovens)                                               1,353         208
U.S. Food Service (microwave ovens)                                               1,083         237
   Subtotal                                                                       2,436         445

Uninsured Losses Reimbursement
Uninsured Losses Reimbursement (10/99)                                            1,551         238
Uninsured Losses Reimbursement (2/00)                                             2,289         366
   Subtotal                                                                       3,840         604

Claim for Damage to Personal Vehicle
Claim for Damage to Personal Vehicle (9/20/99)                                    2,630          404
Claim for Damage to Personal Vehicle (10/28/99)                                   3,454          552
Claim for Damage to Personal Vehicle (4/25/00)                                   10,325        1,792
    Subtotal                                                                     16,408        2,747

Judgments & Damages Litigations
Judgment & Damages Litigation (11/99)                                             3,410          545
Judgment & Damages Litigation (11/99)                                               364           58
Judgment & Damages Litigation (4/00)                                              4,832        1,059
Judgment & Damages Indemnity (6/00)                                               2,690          590
   Subtotal                                                                      11,296        2,252

Settlements & Lawsuits
Discrimination Lawsuit                                                           10,000        1,599
Breach of Contract by Los Angeles County                                        100,000       21,924
Hitting a Pedestrian at the Crosswalk                                            11,000        1,909
     Subtotal                                                                   121,000       25,432

Conferences & Travel Expenses
Children’s Planning Charge (planning councils & American Children’s Council)     99,000       17,179
IHSS Asilomar Conference (travel advances for Adult Service Conference)           5,500          845
Travel Expenses (Children’s Defense National Fund Conference 2000)                  573          126
   Subtotal                                                                     105,073       18,150

Consultant Services
Consultant Services – CALWORKS                                                   22,368        4,904

 Total Unallowable Costs for Los Angeles County                                $297,650      $57,700




USDA/OIG-A/27099-18-SF                                                                      Page 20
EXHIBIT E – FNS’ WRITTEN RESPONSE TO THE DRAFT REPORT




                                         Exhibit E – Page 1 of 3


USDA/OIG-A/27099-18-SF                               Page 21
EXHIBIT E – FNS’ WRITTEN RESPONSE TO THE DRAFT REPORT




                                           Exhibit E – Page 2 of 3


USDA/OIG-A/27099-18-SF                               Page 22
EXHIBIT E – FNS’ WRITTEN RESPONSE TO THE DRAFT REPORT




                                           Exhibit E – Page 3 of 3


USDA/OIG-A/27099-18-SF                               Page 23
ABBREVIATIONS
ADP       Automated Data Processing
CDSS      California Department of Social Services
CFR       Code of Federal Regulations
CO        County Office(s)
FY        Fiscal Year
FNS       Food and Nutrition Service
FSP       Food Stamp Program
HHS       U.S. Department of Health and Human Services
ME        Management Evaluations
OMB       Office of Management and Budget
RMTS      Random Moment Time Study




USDA/OIG-A/27099-18-SF                                   Page 24
